<html>
<title> - LANE NOMINATION</title>
<body><pre>[Senate Hearing 111-432]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 111-432
 
                            LANE NOMINATION 

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                                   TO

 CONSIDER THE NOMINATION OF JEFFREY LANE, TO BE AN ASSISTANT SECRETARY 
         OF ENERGY, CONGRESSIONAL AND INTERGOVERNMENTAL AFFAIRS

                               __________

                             MARCH 17, 2010


                       Printed for the use of the
               Committee on Energy and Natural Resources

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

56-546 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 


















               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman

BYRON L. DORGAN, North Dakota        LISA MURKOWSKI, Alaska
RON WYDEN, Oregon                    RICHARD BURR, North Carolina
TIM JOHNSON, South Dakota            JOHN BARRASSO, Wyoming
MARY L. LANDRIEU, Louisiana          SAM BROWNBACK, Kansas
MARIA CANTWELL, Washington           JAMES E. RISCH, Idaho
ROBERT MENENDEZ, New Jersey          JOHN McCAIN, Arizona
BLANCHE L. LINCOLN, Arkansas         ROBERT F. BENNETT, Utah
BERNARD SANDERS, Vermont             JIM BUNNING, Kentucky
EVAN BAYH, Indiana                   JEFF SESSIONS, Alabama
DEBBIE STABENOW, Michigan            BOB CORKER, Tennessee
MARK UDALL, Colorado
JEANNE SHAHEEN, New Hampshire

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
               McKie Campbell, Republican Staff Director
               Karen K. Billups, Republican Chief Counsel
















                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Bennet, Hon. Michael F., U.S. Senator From Colorado..............     1
Bingaman, Hon. Jeff, U.S. Senator From New Mexico................     1
Lane, Jeff, Nominee to be an Assistant Secretary of Energy, 
  Congressional and Intergovernmental Affairs, Department of 
  Energy.........................................................     4
Udall, Hon. Mark, U.S. Senator From Colorado.....................     2

                                APPENDIX

Responses to additional questions................................     7


                            LANE NOMINATION

                              ----------                              


                       WEDNESDAY, MARCH 17, 2010

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:31 a.m. in room 
SD-366, Dirksen Senate Office Building, Hon. Jeff Bingaman, 
chairman, presiding.

         OPENING STATEMENT OF HON. JEFF BINGAMAN, U.S. 
                    SENATOR FROM NEW MEXICO

    The Chairman. Why don't we go ahead and get started.
    The committee meets this morning to consider the nomination 
of Jeffrey Lane to be the Assistant Secretary of Energy for 
Congressional and Intergovernmental Affairs.
    Mr. Lane is no stranger here in the Senate. He served for 
many years as legislative director for Senator Sasser, 
administrative assistant to Senator Daschle, chief of staff, 
first to Senator Edwards, then to Senator Salazar, and most 
recently to Senator Bennet.
    It is the job of the Assistant Secretary for Congressional 
and Intergovernmental Affairs to present the programs, 
policies, and initiatives of the Department of Energy to 
Congress, but also to relay our views and concerns back to the 
Department. So, we're fortunate to have Mr. Lane, who is 
somebody that can bring to that job more than 15 years' 
experience in senior staff positions in the Senate, who is very 
familiar with the ways of the Senate.
    I strongly support his nomination, very pleased to welcome 
him to the committee.
    I've been informed that Senator Murkowski is not likely to 
get here before we're required to stop for votes over on the 
floor. But, Senator Bennet is here to introduce Mr. Lane, and 
let me defer to Senator Bennet.
    Thank you for being here.

       STATEMENT OF HON. MICHAEL F. BENNET, U.S. SENATOR
                         FROM COLORADO

    Senator Bennet. Thank you, Mr. Chairman. Thank you for 
having me. I thank the ranking member, though she's not here, 
for holding this hearing with you.
    I simply can't imagine a better person for this job than 
Jeff Lane. Jeff has served our government in a number of 
distinguished capacities. He will do well as President Obama's 
nominee for Assistant Secretary of Energy for Congressional and 
Intergovernmental Affairs.
    As you said, Mr. Chairman, Jeff was my chief of staff. He 
provided me with invaluable service during my transition to the 
Senate, helping me build and manage a new staff. As a former 
chief of staff, myself, I know the challenges Jeff faced, 
although I've never had to work for somebody as difficult as 
me.
    Particularly relevant to the committee, he had considerable 
experience with the Energy and Water Appropriations 
Subcommittee, and also with energy policy and financing, that 
affects the work you do every day. He has worked in a senior 
capacity for Senators Sasser, Edwards, Daschle, and for my 
predecessor, Ken Salazar.
    As Senator Udall and others know, our State is home to a 
flagship DOE institution, the National Renewable Energy 
Laboratory. Jeff is well acquainted with NREL and other DOE 
assets all across the country. This blend of policy experience 
with managing Senate staffs, both in Washington and, of course, 
back in each Senator's home States, including my 8 Colorado 
offices, make him qualified to be Assistant Secretary of Energy 
for Congressional and Intergovernmental Affairs. I urge the 
entire committee to support his nomination.
    I want to thank you, Mr. Chairman, for having me here this 
morning.
    I see our senior Senator from Colorado--my senior Senator 
is here--Mark Udall. I know Mark knows Jeff well, and will 
support his nomination, as well.
    I'm just so delighted to be here, it's so rare to have 
somebody with the background and the caliber that Jeff brings 
to this job, and it's going to be a delight for me to work with 
him in his new role.
    Thank you, Mr. Chairman.
    The Chairman. Thank you for your strong endorsement and 
your statement.
    Let me just ask Senator Udall if he wanted to make any 
statement at this point. We have not yet heard from the 
nominee, but we can either hear your statement now, or you 
could wait, whatever you'd like.

          STATEMENT OF HON. MARK UDALL, U.S. SENATOR 
                         FROM COLORADO

    Senator Udall. Mr. Chairman, if I might, since Senator 
Bennet so powerfully made the case for Mr. Lane's confirmation, 
associate myself with his remarks and then add a couple of my 
own.
    He clearly is eminently qualified to serve as liaison of 
the Congress. He's served multiple Senators, including 2 from 
Colorado, over the past 2 decades, as a top aide. He's--has a 
deep an understanding of energy issues, which, in particular, 
is important to the Department.
    I enjoyed working with him, found him to be a consummate 
professional, Mr. Chairman. He's a straight-shooter. Believe it 
or not, I never found him to really have a political agenda. He 
always had a policy agenda, was motivated by what's right for 
the country.
    Then, finally, this position--and I think, Mr. Chairman, 
you just made this case, and as did Senator Bennet--the 
Assistant Secretary Position should be filled as soon as 
possible. There is a crowded agenda, I would acknowledge, but 
the Department and the Congress would be well served by his 
speedy confirmation.
    Thank you for holding this important hearing.
    Jeff, look forward to hearing your testimony.
    Senator Bennet, it's always great to work with you.
    Thank you.
    The Chairman. All right, very good.
    Senator Bennet, we'll excuse you. I know you have a busy 
schedule.
    Let me ask Jeff Lane to please come up to the committee 
table, and just remain standing there, if you would.
    The--under our rules in the committee, we're required, as 
to all nominees, to have them sworn in connection with their 
testimony. So, if you would please raise your right hand.
    Do you solemnly swear that the testimony you're about to 
give to the Senate Committee on Energy and Natural Resources 
shall be the truth, the whole truth, and nothing but the truth?
    Mr. Lane. I do.
    The Chairman. Please be seated.
    Before you begin your statement, I will ask 3 questions 
that we address to each nominee who comes before this 
committee.
    No. 1, Will you be available to appear before this 
committee and other congressional committees to represent 
departmental positions and respond to issues of concern to the 
Congress?
    Mr. Lane. I will.
    The Chairman. Question No. 2, Are you aware of any personal 
holdings, investments, or interests that could constitute a 
conflict of interest or create the appearance of such a 
conflict, should you be confirmed and assume the office to 
which you've been nominated by the President?
    Mr. Lane. Mr. Chairman, my investments, personal holdings, 
and other interests have been reviewed, both by myself and the 
appropriate ethics counselors within the Federal Government. I 
have taken appropriate action to avoid any conflicts of 
interest. There are no conflicts of interest, or appearances 
thereof, to my knowledge.
    The Chairman. Thank you very much. Question No. 3, Are you 
involved, or do you have any assets that are held, in a blind 
trust?
    Mr. Lane. No.
    The Chairman. All right. Our normal practice, at this 
point, is to invite you to introduce any family members that 
are here that you wish to have recognized, and then to have you 
make your opening statement.
    Mr. Lane. Thank you, Mr. Chairman.
    I'd like to introduce my family: first my wife, Mary Beth 
Buchholz, a proud native of the great State of North Dakota; my 
younger daughter Elizabeth, who is in pre-K, and my daughter 
Julianne, who is in second grade.
    The Chairman. We welcome all of them and--glad to have them 
here.
    Mr. Lane. Thank you.
    The Chairman. Why don't you go ahead with your opening 
statement.

 STATEMENT OF JEFF LANE, NOMINEE TO BE ASSISTANT SECRETARY OF 
ENERGY, CONGRESSIONAL AND INTERGOVERNMENTAL AFFAIRS, DEPARTMENT 
                           OF ENERGY

    Mr. Lane. Thank you, Mr. Chairman.
    Chairman Bingaman, Ranking Member Murkowski, and 
distinguished members of the committee, it is an honor and a 
privilege to appear before you today as President Obama's 
nominee for Assistant Secretary of Energy for Congressional and 
Intergovernmental Affairs. I want to thank Secretary Chu for 
recommending me to the President, and thank the committee for 
holding this hearing.
    As you consider my nomination for this position, I hope you 
will take into account my record, my experiences, and my 
commitment of service to the Congress and to the mission of the 
Department of Energy.
    I have spent most of my professional life, almost 16 years, 
serving in senior staff positions in the U.S. Senate. After a 
short time in private law practice, I began my career here 
working for 7 years as legislative director to my home State 
Senator, Jim Sasser, of Tennessee. Senator Sasser was chairman 
of the Senate Budget Committee and a member of the Senate 
Appropriations Committee, including the Subcommittee on Energy 
and Water. I had primary responsibility for energy and water 
appropriations issues for Senator Sasser, including those 
relating to the Oak Ridge National Laboratory and the Y-12 
National Security Complex at Oak Ridge.
    I also had an opportunity to work in Senate leadership as a 
senior aide to Senator Tom Daschle, and most recently I served 
as chief of staff to Colorado Senators, Ken Salazar and Michael 
Bennet. I want to thank Senator Bennet, very much for being 
here today and introducing me.
    Senator Salazar was, of course, a member of this committee. 
I am proud to have had an opportunity to assist him with his 
energy agenda, including his bipartisan work with many of the 
members of this committee on the 2007 energy bill and his 
efforts to support the National Renewable Energy Laboratory in 
Colorado, which I know Senator Udall is a big supporter of, as 
well.
    Our office, and Senator Udall's office and others in 
Colorado, worked with NREL to help establish the Colorado 
Renewable Energy Collaboratory, a partnership between the lab 
and the State's research universities.
    My experiences in the Congress give me a clear 
understanding of the importance of the position of Assistant 
Secretary for Congressional and Intergovernmental Affairs. I 
have great respect for this institution, for its members, and 
for its staff. I know the value of prompt attention to your 
questions and concerns. I appreciate the unique issues--the 
need to consider the unique issues and challenges you face in 
each of your States. It has always been an important part of my 
work in the Senate to stay in close communication with State, 
local, and tribal officials regarding the impact of Federal 
policies.
    If confirmed, I look forward to applying the lessons I have 
learned here to foster an effective working relationship 
between the Department, the Congress, and our intergovernmental 
partners.
    Thank you again for the time and opportunity to appear 
before you today. I look forward to answering any questions you 
may have.
    The Chairman. Thank you very much for your statement.
    As I indicated in my opening statement, I strongly support 
your nomination, and Senator Udall, I believe, indicated the 
same. So, did you have questions that you wanted to pose to----
    Senator Udall. I don't, Mr. Chairman, at this time. I think 
Mr. Lane's----
    The Chairman. OK.
    Senator Udall [continuing]. Record's self-explanatory, and, 
as you pointed out, we want to confirm him as quickly as 
possible. I know the record will be open, if I do.
    [The prepared statement of Mr. Lane follows:]

 Prepared Statement of Jeff Lane, Nominee to be an Assistant Secretary 
 of Energy, Congressional and Intergovernmental Affairs, Department of 
                                 Energy
    Chairman Bingaman, Ranking Member Murkowski, and distinguished 
Members of the Committee, it is an honor and a privilege to appear 
before you today as President Obama's nominee for Assistant Secretary 
of Energy for Congressional and Intergovernmental Affairs. I want to 
thank Secretary Chu for recommending me to the President and thank the 
Committee for holding this hearing.
    As you consider my nomination for this position, I hope you will 
take into account my record,my experiences and my commitment of service 
to the Congress and to the important mission ofthe Department of 
Energy.
    I have spent most of my professional life-almost 16 years-serving 
in senior staff positions in the United States Senate. After a short 
time in private law practice, I began my career hereworking for seven 
years as legislative director to my home state senator, Jim Sasser of 
Tennessee. Senator Sasser was the chairman of the Senate Budget 
Committee and a member of the Senate Appropriations Subcommittee on 
Energy and Water. I had primary responsibility for energy and water 
appropriations issues for Senator Sasser, including those relating to 
the Oak Ridge National Laboratory and the Y-12 National Security 
Complex at Oak Ridge.
    I also had an opportunity to work in Senate Leadership as a senior 
aide for three years to Senator Tom Daschle, and most recently I served 
as chief of staff to Colorado Senators Ken Salazar and Michael Bennet. 
Senator Salazar was, of course, a member of this committee. I am proud 
to have had the opportunity to assist him with his ambitious energy 
agenda, including his bipartisan work with many of you on the 2007 
Energy Bill and his efforts to support the National Renewable Energy 
Laboratory. Our office also worked with NREL to help establish the 
Colorado Renewable Energy Collaboratory, a partnership between the lab 
and the state'sresearch universities.
    My experiences in the Congress give me a clear understanding of the 
importance of the position of Assistant Secretary for Congressional and 
Intergovernmental Affairs. I have a great respectfor this institution, 
for its Members, and for its staff. I know the value of prompt 
attention to your questions and concerns. I appreciate the need to 
consider the unique issues and challengesyou face in each of your 
states.
    If confirmed, I look forward to applying the lessons I have learned 
here to foster an effective working relationship between the 
Department, the Congress, and state, local and tribalgovernments.
    Thank you again for the time and opportunity to appear before you 
today, and I look forward toanswering your questions.

    The Chairman. That's right. We will keep the record open 
until 5 o'clock tomorrow to submit any additional questions. 
Any member who was not able to be here this morning, that wants 
to submit a question, may do so by then. But, we do hope we can 
report this nomination to the full Senate very soon and get 
action in the full Senate on it.
    Mr. Lane. Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    That will conclude our hearing.
    [Whereupon, at 9:42 a.m., the hearing was adjourned.]
                                APPENDIX

                   Responses to Additional Questions

                              ----------                              

       Responses of Jeff Lane to Questions From Senator Bingaman
                        stimulus implementation
    Question 1. Our committee recently held an oversight hearing to 
discuss the Department of Energy's implementation of last year's 
stimulus bill (H.R. 1). It appears that DOE's low spendout rate is at 
least partially the result of poor communication between the Department 
and state and local governments; those same entities have also written 
to DOE to ask for clearer guidelines in a number of areas. As Assistant 
Secretary for Congressional and Intergovernmental Affairs, can you 
explain how you would reach out to and address the concerns raised by 
state and local agencies, whether related to the stimulus or another 
issue?
    Answer. I believe that communicating effectively with our state, 
local, and tribal partners is critically important to the success of 
the Department. If confirmed, I plan to actively engage individual 
state, local and tribal entities as well as groups such as the NGA, 
USCM, NASEO, NACO, the National League of Cities, and more. My goal 
would be to establish a dialogue with our intergovernmental partners 
that allows the Department to respond quickly to their questions and 
concerns and to share information proactively with them so that they 
can take full advantage of the opportunities-such asthose made 
available by the Recovery Act-the Department has to offer.
    Question 2. I'm also curious about the Department's general 
strategy for keeping Congress updated about its progress in 
implementing the stimulus. After that legislation was signed into law, 
my staff and I received regular updates from DOE about its current and 
projected spendouts, but now, we mainly just receive press releases 
shortly before they're publicly distributed. Ifconfirmed as Assistant 
Secretary, will you commit to making sure that the members of this 
Committee also receive regular, in-depth updates about the status of 
DOE's stimulus funds?
    Answer. Yes. If confirmed, I will make it a priority to provide 
regular updates to the Committee on the status of the Department's 
implementation of the Recovery Act.

                                    

      

</pre></body></html>
